SIGAR                                             Special Inspector General for
                                                   Afghanistan Reconstruction




                                                                  SIGAR Audit 13-9



       Health Services in Afghanistan: Two New USAID-
       Funded Hospitals May Not Be Sustainable and
       Existing Hospitals Are Facing Shortages in Some Key
       Medical Positions




                                                                     APRIL
                                                                    2013
SIGAR Audit 13-9/Health Services in Afghanistan
                                                         April 2013



SIGAR
                                                         Health Services in Afghanistan: Two New USAID-Funded Hospitals May
                                                         Not Be Sustainable and Existing Hospitals Are Facing Shortages in Some
                                                         Key Medical Positions


Special Inspector General for
                                                         SIGAR AUDIT 13-9
Afghanistan Reconstruction

WHAT SIGAR REVIEWED                                      WHAT SIGAR FOUND
The U.S. Agency for International                        The Afghan government may not be able to sustain two hospitals—
Development (USAID) is a primary                         Gardez in Paktiya province and Khair Khot in Paktika province—
provider of health sector assistance to                  currently being built with USAID funds. USAID’s $18.5 million
the Afghan government, along with the                    investment in these new hospitals may not be the most economical
World Bank and European Union.                           and practical use of these funds. First, USAID did not fully assess
Through its assistance, USAID has sought                 MOPH’s ability to operate and maintain these new facilities once
to expand access to the Afghan public                    completed. Second, construction began on the new hospitals about 1
health system by increasing the number                   year before USAID coordinated the final design plans with MOPH.
of medical facilities and health                         USAID’s late coordination resulted in the construction of facilities that
professionals available to provide health                are larger—Gardez hospital is 12 times larger than the facility being
care services. This includes the                         replaced—than can be sustained, and increased estimated operating
Construction of Health and Educational                   costs for the new facilities that are disproportionate to current costs.
Facilities (CHEF) program to build 2 new                 SIGAR reviewed the two hospitals under construction as part of the
hospitals—in Gardez and Khair Khot—and                   CHEF program and found that their estimated annual operation and
the Partnership Contracts for Health                     maintenance costs could be over five times more than the annual
(PCH) program to provide health services                 operating costs for the hospitals they are replacing. For example, the
in 13 Afghan provinces, including the                    existing Gardez hospital has annual operating costs, including fuel, of
delivery of the Essential Package of                     about $611,000, and USAID estimates that annual fuel costs alone
Hospital Services (EPHS) in 5 provinces.                 for the new hospital could be as much as $3.2 million. Similarly, the
Much of the funding for the PCH program                  existing Khair Khot hospital has annual operating costs of about
is provided as direct assistance to the                  $98,000 and USAID estimates that annual operation and
Afghan Ministry of Public Health (MOPH).
This report assesses whether (1) USAID
has ensured that the Afghan government
can sustain two hospitals currently being
built with USAID funds, and (2) medical
staffing required for the five provincial
hospitals operated with USAID funds was
being provided. We obtained data and
met with USAID, MOPH, and non-
governmental organization (NGO) officials
responsible for operating and staffing
health facilities in five Afghan provinces.
SIGAR conducted this work in Kabul,
Ghazni, Paktiya, and Paktika provinces
from August 2012 through April 2013, in
accordance with generally accepted
government auditing standards.


                                                         SIGAR photo of Gardez hospital under construction, November 2012




       For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
 maintenance costs alone for the new hospital will be
 about $587,000. Neither USAID nor MOPH has                            WHAT SIGAR RECOMMENDS
 committed to provide funding to cover the additional
 operating costs of the new hospitals.                                 SIGAR recommends that the USAID
                                                                       Mission Director, in coordination with
 SIGAR also found that some provincial hospitals are                   the Afghan Ministry of Public Health, (1)
 experiencing staffing shortages for certain key medical               develop a plan for making optimum use
 positions. Specifically, four of the five provincial hospitals        of the Gardez and Khair Khot hospitals
 that SIGAR reviewed to determine whether they met                     currently being constructed, and (2)
 medical staffing standards reported persistent vacancies,             establish and monitor milestones for
 some lasting several years, according to NGO officials.               achieving the minimum and advised
 The EPHS program specifies the minimum number of                      staffing levels and include information
 doctors required to provide the basic level of healthcare             on meeting these milestones in annual
 services and the higher, “advised” number of doctors                  program reviews.
 needed to provide the full range of healthcare services for
 provincial hospitals. SIGAR found that only one of the five           In commenting on this report, USAID
 hospitals met the minimum staffing standards for all five             expressed concern that the report’s
 key positions reviewed. In addition,                                  scope did not include a more
                                                                       comprehensive review of health sector
         none of the five hospitals met the “advised”                 assistance. USAID did not agree with the
          staffing standards, except for the general                   first recommendation and provided
          practitioner and pediatrician positions; and                 information to support its conclusion
         three of the five hospitals had no                           that the hospitals will be sustained after
          anesthesiologist, one had no pediatrician, and               completion. However, USAID did not
          two had no obstetrician/gynecologist.                        provide sufficient evidence of MOPH
                                                                       capacity to operate the larger facilities or
 MOPH contracts require NGOs to implement the full range
                                                                       information on operation and
 of healthcare services—including staffing—at hospitals
                                                                       maintenance funds for the hospitals.
 during the life of the contract. However, NGO officials
                                                                       Regarding the second recommendation,
 stated that the limited availability of doctors in
                                                                       USAID provided examples of efforts to
 Afghanistan, combined with the low pay for doctors, make
                                                                       monitor and report on medical staffing
 it difficult for them to staff key positions at provincial
                                                                       levels. However, these efforts do not
 hospitals. Although MOPH submits semi-annual and
                                                                       specifically address the EPHS guidelines
 annual performance reports to USAID, these reports do
                                                                       for minimum and advised staffing levels.
 not include an evaluation of the program’s success in
 meeting the EPHS guidelines on required staffing levels.




                              SIGAR photo of Gardez hospital under construction,
                              November 2012



For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
April 29, 2013


The Honorable John F. Kerry
U.S. Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Dr. S. Ken Yamashita
Mission Director for Afghanistan, U.S. Agency for International Development


This report discusses the results of SIGAR’s audit of the U.S. Agency for International
Development’s (USAID) Essential Package of Hospital Services program as it relates to the
construction and staffing of hospitals. The report includes two recommendations to the USAID
Mission Director, in coordination with the Afghan Ministry of Public Health (MOPH), to (1)
develop a plan for making optimum use of the Gardez and Khair Khot hospitals currently being
constructed, and (2) establish and monitor milestones for achieving the minimum and advised
staffing levels at provincial hospitals and include information on meeting these milestones in
annual program reviews.
This is the first of two reports we will issue on the subject of USAID-funded health services in
Afghanistan. The second report—to be issued later this year—will address direct assistance for
the Partnership Contracts for Health program involving the MOPH.
In commenting on a draft of this report, USAID did not concur with our first recommendation
and expressed concern with our second recommendation. USAID comments are reproduced in
appendix II. USAID also provided technical comments, which we incorporated, as appropriate.
SIGAR conducted this audit under the authority of Pub. L. No. 110-181, as amended; the
Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 2 
Afghan Government May Not Be Able to Sustain Two Hospitals Being Built with USAID Funds............................. 3 
Provincial Hospitals Are Experiencing Staffing Shortages for Some Key Medical Positions ................................... 6 

Conclusion.................................................................................................................................................................... 8 
Recommendations ...................................................................................................................................................... 9 
Agency Comments ....................................................................................................................................................... 9 

Appendix I - Scope and Methodology ....................................................................................................................... 11 
Appendix II - Comments from the U.S. Agency for International Development ...................................................... 12 
Appendix III - Acknowledgements ............................................................................................................................. 21 


TABLES

Table 1 - Minimum and Advised Staffing Levels at EPHS Provincial Hospitals....................................................... 7 


FIGURES

Figure 1 - Provinces Served by the PCH Program ...................................................................................................... 2 

Figure 2 - Operating Costs of Existing Hospitals versus Hospitals under Construction .......................................... 4 
Figure 3 - Timeline for Construction of Hospitals Under the CHEF Program ............................................................ 5 


 PHOTOS

Photo 1 - Generator Installed for Gardez Provincial Hospital ................................................................................... 3 




SIGAR Audit 13-9/Health Services in Afghanistan                                                                                                                        Page i
ABBREVIATIONS

             BPHS                       Basic Package of Health Services
             CHEF                       Construction of Health and Education Facilities
             EPHS                       Essential Package of Hospital Services

             MOPH                       Ministry of Public Health
             NGO                        non-governmental organization
             PCH                        Partnership Contracts for Health
             USAID                      U.S. Agency for International Development




SIGAR Audit 13-9/Health Services in Afghanistan                                           Page ii
In 2008, the U.S. Agency for International Development (USAID) and the Afghan government signed a bilateral
agreement to initiate the Partnership Contracts for Health (PCH) program. The PCH program supports the
Ministry of Public Health (MOPH) in delivery of two components: (1) the Basic Package of Health Services
(BPHS); and (2) the Essential Package of Hospital Services (EPHS). These two components provide different
levels of health services:
        The BPHS provides primary health care services—such as immunizations and prenatal care—at small
         and rural health clinics and forms the core of health service delivery for all primary care facilities in
         Afghanistan.

        The EPHS outlines the medical services each type of hospital in the Afghan health care system should
         provide in terms of general services, staff, equipment, diagnostic services, and medications while
         promoting a health referral system that integrates the BPHS with hospitals.
According to USAID, its assistance programs—such as the PCH program—have helped improve overall health
care for the Afghan population by providing (1) health care services for over 11 million patients annually, and
(2) training for over 21,000 healthcare providers, including midwives and community health workers. USAID
also reports that this assistance helped increase prenatal care for Afghan women from 16 percent in 2003 to
60 percent in 2010 and reduce the rates of maternal mortality by 80 percent, infant mortality by 53 percent,
and child mortality (under 5) by 62 percent
In 2008, USAID awarded a cooperative agreement to the International Organization for Migration1 to design
and construct two hospitals to replace existing facilities in Paktiya and Paktika provinces, Afghanistan. These
two facilities—Gardez, a provincial hospital, and Khair Khot, a district hospital—are being built to provide health
care services prescribed under the BPHS and EPHS components of the PCH program. Funding to operate these
hospitals, including funds for operation and maintenance, supplies, and salaries, will be provided through the
PCH program.
The objectives of this review were to assess whether (1) USAID ensured that the Afghan government can
sustain the two hospitals currently being built with USAID funds, and (2) required medical staff were provided
to the five provincial hospitals funded by USAID. We are currently examining USAID’s assessment of MOPH’s
ability to effectively use on-budget assistance2 and will report on this separately.
To accomplish these objectives, we reviewed USAID policies and procedures related to the PCH program. We
analyzed current and projected operational costs for the two new hospitals being built with USAID funding and
interviewed USAID and MOPH officials to determine whether plans were in place to operate and maintain these
new facilities. We analyzed data on staffing standards for five provincial hospitals to determine whether the
staffing levels prescribed for EPHS were being achieved as required. We conducted our work in Kabul, Ghazni,
Paktiya, and Paktika provinces from August 2012 through April 2013 in accordance with generally accepted
government auditing standards. Appendix I contains a more detailed discussion of our scope and methodology.




1 International Organization for Migration was responsible for the design and construction of health and educational
facilities in accordance with a USAID cooperative agreement.
2 On-budget, or “direct,” assistance refers to development assistance being channeled through the host country’s core

budget.




SIGAR Audit 13-9/Health Services in Afghanistan                                                                        Page 1
BACKGROUND

USAID is a primary provider of health sector assistance to the Afghan government, along with the World Bank
and European Union. USAID has sought to expand access to the Afghan public health system by increasing the
number of medical facilities and health professionals available to provide health care services. Much of the
funding is provided on-budget, whereby USAID provides the funds directly to MOPH for operation of the PCH
program. MOPH uses these funds to contract for the implementation of BPHS in 13 provinces and EPHS in 5
provinces, as shown in figure 1.



          Figure 1 - Provinces Served by the PCH Program




          Source: SIGAR review of USAID Documents



In 2008, USAID committed $236 million in direct assistance funds to MOPH for the PCH program, which
supports both BPHS for basic care and EPHS for hospital services.3 As of February 2013, approximately $190
million had been obligated, $114 million of which had been disbursed. These funds are being used for
operating costs, including operation and maintenance, salaries, and supplies for hospitals and other medical
facilities funded through the PCH program.




3 Under the PCH program, MOPH initiates procurement activities supporting health service delivery through a host country

contract.




SIGAR Audit 13-9/Health Services in Afghanistan                                                                   Page 2
In addition to the PCH program, USAID is funding the construction of two hospitals—Gardez and Khair Khot—
through the $57 million CHEF program.4 The 100-bed Gardez hospital, being built to replace the existing 70-
bed provincial hospital, has a $15 million estimated cost and an August 2013 scheduled completion date. The
20-bed Khair Khot hospital, being built to replace the existing district hospital, has a $3.5 million estimated
cost and a May 2013 scheduled completion date.


AFGHAN GOVERNMENT MAY NOT BE ABLE TO SUSTAIN TWO HOSPITALS BEING
BUILT WITH USAID FUNDS

Both the Gardez and Khair Khot hospitals have estimated operation and maintenance costs that are
considerably higher than the associated costs of the hospitals they are replacing. The old 70-bed Gardez
provincial hospital has operating costs of approximately $611,000, which includes costs for operation and
maintenance, salaries, and supplies. However, the International Organization for Migration has estimated that
operation and maintenance costs alone for the new 100-bed Gardez hospital will exceed $1.1 million annually.
A USAID-contracted engineering firm, which conducted a study of projected operating costs for facilities being
constructed under the CHEF program, estimated annual operation and maintenance costs of $2.1 million for
the new Gardez hospital.5 USAID has also estimated higher fuel costs for the new hospital, ranging from $1.6
million to $3.2 million annually.6 This represents a potential increase in annual operation and maintenance
costs for the new hospital ranging between 180 percent and 524 percent.
A Ministry official responsible for managing
the PCH program stated that the higher                Photo 1 - Generator Installed for Gardez Provincial Hospital
operating costs for the new Gardez hospital
were attributed to fuel costs associated with
two large generators (400- and 720-
kilowatts) and the complexity of the heating
system being installed. According to these
officials, the hospital may require smaller
generators and a revised heating system to
reduce estimated operating costs. Photo 1
shows the 400-kilowatt generator for the
new Gardez provincial hospital.
The new 20-bed Khair Khot district hospital
may encounter similar problems with
substantially higher estimated operating
costs than the hospital it is replacing. The
old Khair Khot district hospital has total
operating costs of about $98,000 per year,            Source: SIGAR, November 25, 2012
which includes costs for operation and


4 The CHEF program was implemented to address the healthcare needs of Afghan citizens through the construction of one
hospital in Gardez and one in Khair Khot. Also, under this program, training of local health personnel will be accomplished
through the construction of three midwife training centers and four provincial teacher training centers.
5Engineering Support Program, Annual Operations and Maintenance Cost Budgets, Final Report submitted to USAID,
September 22, 2012.
6   We could not determine the reasons for the differences between these estimates.




SIGAR Audit 13-9/Health Services in Afghanistan                                                                      Page 3
maintenance, salaries, and benefits. The International Organization for Migration has estimated operation and
maintenance costs alone for the new facility will be more than $266,000, while USAID estimated annual
operating costs of more than $587,000. This represents a six-fold increase in annual operation and
maintenance costs for the new hospital. As a result, substantial funding increases from the Ministry, USAID, or
other international donors will be needed to operate and maintain the two new hospitals. However, USAID and
Ministry officials indicated that no additional funding has been allocated to compensate for the higher
operating costs estimated for these hospitals. Figure 2 illustrates the comparison of current and estimated
operating costs for Gardez and Khair Khot hospitals currently under construction.




        Figure 2 - Operating Costs of Existing Hospitals versus Hospitals under Construction




        Source: SIGAR Review of MOPH and USAID Documents




SIGAR Audit 13-9/Health Services in Afghanistan                                                          Page 4
Figure 3 - Timeline for                  USAID Approved Two New Hospital Design Plans without
Construction of Hospitals                Coordinating with MOPH to Ensure That These Facilities
Under the CHEF Program                   Could be Operated and Maintained
                                         We found that USAID did not fully coordinate with the MOPH to ensure
                                         that the higher operating costs could be managed. In July 2007, the
                                         USAID Mission Director issued a memorandum certifying that the Afghan
                                         government was capable of effectively maintaining and using the hospital
                                         facilities being built under the CHEF program.7 The memorandum
                                         specified that if the Ministry does not appear to have the capacity to
                                         maintain and use the new hospitals built under the CHEF program, at
                                         least at a minimally adequate level, funding assistance may be
                                         discontinued until Ministry officials take appropriate measures to satisfy
                                         the certification requirements.
                                         In March 2013, a USAID official told us that the Ministry twice provided
                                         documentation stating that it would be able to operate and maintain the
                                         new facilities once completed. Specifically, in July 2007, the MOPH issued
                                         a memorandum stating that the Afghan government would provide
                                         funding to operate all health facilities to be constructed under the CHEF
                                         program. In December 2011, the Minister signed a memorandum from
                                         USAID confirming that the Ministry had funding available to operate and
                                         maintain these facilities; however, this memorandum did not specify time
                                         frames that funding would be available. Ministry officials told us that the
                                         statements from the Minister were not based on detailed analyses of
                                         operation and maintenance costs, but on general assumptions regarding
                                         the Ministry’s ability to fund operations for the new health facilities in the
                                         future. Moreover, we found no evidence that USAID had conducted any
                                         analysis to determine whether the Ministry had the ability to operate the
                                         health facilities constructed under the CHEF program.
                                         USAID also could not provide documentation to indicate that the agency’s
                                         review and approval of the design plans for the Gardez and Khair Khot
                                         hospitals took into account the higher operating costs estimated for the
                                         new facilities or the Afghan government’s financial capability to maintain
                                         them once completed. Figure 2 presents a timeline of the key events that
                                         transpired related to the review and approval of facility design plans for
                                         projects to build provincial and district hospitals under the CHEF program.
                                         This figure shows that construction on the new hospitals began about 1
Source: SIGAR Review of MOPH and         year before the final design plans were provided to the Ministry for
USAID Documents                          review.8 According to MOPH officials, in May 2012, the International
                                         Organization for Migration forwarded two memoranda of understanding to


7Section 611(e) of the Foreign Assistance Act of 1961 provides that whenever funds are proposed to be used for capital
assistance projects exceeding $1 million, the mission director must provide certification regarding the capability of the host
country to effectively maintain and use the project.
8 The design plans for the hospital in Gardez were developed by an architectural engineering firm, OWP/P-Cannon, under

the general supervision of the International Organization for Migration.




SIGAR Audit 13-9/Health Services in Afghanistan                                                                        Page 5
the Ministry, asking that it acknowledge project approval by signing the documents. By signing the memoranda,
the Ministry would assume responsibility for the cost of operating and maintaining the hospitals once
completed. However, Ministry officials, including those responsible for managing the PCH program, told us that
construction began before they were given the opportunity to review the hospital designs; therefore, Ministry
officials were not able to provide feedback on the project requirements. As a result, the officials said they were
reluctant to sign the memoranda. As of February 2013, Ministry officials said that they had not signed these
memoranda.
Ministry officials also stated that the existing Gardez hospital is approximately 1,000 square meters, whereas
the new hospital is approximately 12,500 square meters. A Ministry official stated that they do not need such a
large hospital, which will require additional staff for cleaning and security and further strain funding available
for future hospital operations. Another Ministry official also told us that as a potential solution, they may
initially use part of the new hospital and gradually start using the unoccupied space in the future.


Newly Constructed Khowst Provincial Hospital Experienced Similar Problems with
Lack of Funding to Cover the Increased Operation and Maintenance Costs
A similar situation occurred for another newly constructed provincial hospital operated under EPHS, whereby
the funds allocated for operation and maintenance costs were insufficient because the new hospital was
significantly larger than the facility it replaced and, therefore, required larger generators. Specifically, Ministry
officials responsible for managing the PCH program cited the example of the new Khowst provincial hospital,
which was constructed by the Department of Defense under the Commander’s Emergency Response Program.
While USAID did not fund or manage the construction of this facility, the hospital is operated using USAID
funding provided through the PCH program. This 100-bed hospital, completed in 2011, could not be fully used
due to excessive fuel costs incurred for the 450- and 500-kilowatt generators that were originally installed.
Ministry officials calculated that the fuel costs needed to operate these large generators were approximately
10 times higher for the new facility than they were for the old facility. However, no additional funding was made
available to accommodate the major increase in fuel costs. According to Ministry officials, two smaller 132
kilowatt generators were purchased which resulted in lower monthly fuel costs. Moreover, these officials stated
that the smaller generators did not have sufficient capacity to power the entire hospital. As a result, only about
35 percent of the space in the new Khowst hospital was operational at the time of our audit, and the two larger
generators purchased for this project were not being used. Similar problems with operating and maintaining
the Gardez and Khair Khot hospitals currently under construction may occur unless steps are taken to make
operating costs more manageable.9


PROVINCIAL HOSPITALS ARE EXPERIENCING STAFFING SHORTAGES FOR SOME
KEY MEDICAL POSITIONS

In our review of the five provincial hospitals under the EPHS component, four reported persistent shortages of
doctors on staff. Non-governmental organization (NGO) officials told us that some of these vacancies had
lasted for several years. The availability of qualified health professionals in Afghanistan, particularly doctors, is
extremely limited. For example, a chronic shortage of obstetricians and gynecologists exists in most provincial
hospitals. The Ministry’s EPHS guidelines specify the type and number of doctors required to be assigned at



9 USAID officials told us that as of March 2013, they had no plans to build any new health facilities in Afghanistan beyond

the two hospitals currently being built under the CHEF program.




SIGAR Audit 13-9/Health Services in Afghanistan                                                                       Page 6
provincial hospitals to provide essential health care services. However, because health care resources are
scarce in Afghanistan, MOPH recognizes a large difference exists between the minimum number of staff
required to operate a hospital and the number of staff that would be ideal.
EPHS guidelines specify two levels of staffing standards for provincial hospitals—“minimum” and “advised.”
Minimum staffing represents the number of doctors required for a hospital to provide the basic level of health
services. “Advised” staffing is the number of doctors that the Ministry plans to have within the next 5 to 10
years and reflects the number needed to provide the full range of health care services. Table 1 provides an
overview of the minimum and advised staffing levels assigned, as of February 2013, to the five provincial
hospitals that we reviewed.

Table 1 - Minimum and Advised Staffing Levels at EPHS Provincial Hospitals
        Medical        Minimum       Advised                    Actual Staffing as of February 2013
        Position       Staffing      Staffing
                                                  Ghazni        Paktika         Paktiya       Khowst       Badakhshan

Surgeon                         2             5             3               2             2            2                 2

Anesthesiologist                1             2             0               0             0            1                 1

Obstetrician and                2             4             0               1             0            1                 3
Gynecologist

Pediatrician                    2             2             0               1             2            2                 2

General Practitioner            7           13             20               6         12           13                   15

Source: SIGAR’s analysis of staffing details obtained from NGOs and MOPH.

Table 1 shows that Badakhshan was the only hospital we reviewed that met the minimum staffing standards
for all five categories of key medical positions. It also shows that all five hospitals met the minimum staffing
level for one position—surgeon. However, none of the five hospitals was able to meet the advised staffing
standards, with the exception of the general practitioner and pediatrician positions. Three of the five
hospitals—Ghazni, Khowst, and Badakhshan—met the advised standard for general practitioners and three of
the five hospitals—Paktiya, Khowst, and Badakhshan—met the advised standard for pediatricians. In addition:
         3 of the 5 hospitals had no anesthesiologist (minimum 1, advised 2)
         2 of the 5 hospitals had no obstetrician or gynecologist (minimum 2, advised 4)
         1 of the 5 hospitals had no pediatrician (minimum 2, advised 2)
While the provincial hospitals we examined lacked medical doctors for these key positions, four of five
provincial hospitals met the minimum standards for general practitioner, and two of five exceeded advised
staffing levels for this position.
MOPH contracts with NGOs to operate health facilities for the PCH program, to include providing the medical
staff needed at provincial hospitals. NGOs are expected to implement the full range of health care services at
hospitals during the life of the contract. NGO officials told us that recruiting staff, particularly females, has
been a challenge due to the low salaries allocated to these positions and security concerns. According to a
senior provincial hospital official, competition from private sector employers who generally offer higher salaries
makes it more difficult to attract doctors. Further, the lack of qualified medical doctors in Afghanistan makes it
difficult to recruit and retain qualified staff.
According to NGO officials, the Ministry allows salary increases for doctor positions to help attract qualified
candidates, but it is generally a slow process. Further, NGO budgets have not been increased to compensate


SIGAR Audit 13-9/Health Services in Afghanistan                                                                   Page 7
for such salary adjustments. These officials stated that the Ministry expects them to use funding available for
vacant positions to increase the salaries for other positions. Additionally, NGO officials told us that delayed
funding from MOPH has resulted in consistently late salary payments and made retaining doctors even more
challenging. USAID and MOPH have attempted to fill some of the staffing shortages on a selective basis, but
have not developed a comprehensive action plan to address chronic vacancies in key doctor positions.
USAID, through its implementation letter for the PCH program, requires MOPH to submit a semi-annual
performance report and an annual report to USAID. These reports should show the progress made toward
achieving benchmarks, highlight tangible results, identify any problems encountered by MOPH or NGOs in
program implementation, and propose remedial actions as appropriate. USAID provided us three reports
submitted by MOPH to satisfy this requirement covering the period July 2008 through September 2012. Our
review of these reports demonstrated that the minimum and advised staffing levels were not included as part
of MOPH’s evaluation of staffing at provincial hospitals. USAID also provided documentation indicating that
MOPH is documenting staffing shortages at provincial hospitals as part of its monitoring and evaluation of
EPHS facilities. However, the results of our review show that, despite MOPH’s efforts to address staffing
shortages, persistent vacancies continue to exist in provincial hospitals, and staffing standards prescribed by
EPHS are not always met.


CONCLUSION

USAID’s $18.5 million investment in constructing Gardez and Khair Khot hospitals could have been used more
effectively, had USAID coordinated with MOPH earlier rather than waiting until 1 year after construction began
to provide MOPH the design plans. As a result, USAID funded construction of larger facilities—particularly for
the Gardez hospital at more than 12 times the size of the facility it is replacing—than the Ministry could
effectively operate and maintain. MOPH has indicated that it will not be able to fund the operation and
maintenance costs of these two hospitals, which could cost five times more to operate than the cost of the
facilities they are replacing. Moreover, the Gardez hospital may require major power generation and heating
system modifications to reduce operating costs, which would also limit the amount of hospital space that can
be made functional. This situation occurred in a recently completed hospital under another U.S. funded
program, resulting in the hospital using patient care funds to make the modifications and limiting the hospital’s
use of space to about one-third of its overall capacity. More than likely, better design planning for Gardez and
Khair Khot would have produced more economical and practical hospitals and allowed for better use of U.S.
appropriated funds.
Further, some USAID-funded provincial hospitals have staffing shortages for critical medical positions. With the
exception of one facility, provincial hospitals have not achieved minimum staffing for certain key medical
positions, which may result in the inadequate provision of health care services required under the PCH
program. More significantly, three of the five hospitals that we reviewed had no anesthesiologists, obstetricians
and gynecologists, or pediatricians. Although MOPH submits semi-annual and annual performance reports to
USAID, these reports do not include an evaluation of the program’s success in meeting the EPHS guidelines on
required staffing levels. Effective operation and staffing of provincial hospitals are essential to continued
progress toward in building a capable and sustainable Afghan health care system.




SIGAR Audit 13-9/Health Services in Afghanistan                                                           Page 8
RECOMMENDATIONS

To provide greater assurance that the Afghan government will be able to sustain new health facilities built with
USAID funds, we recommend that the USAID Mission Director for Afghanistan:
    1. Coordinate with MOPH to develop a plan for making optimum use of the Gardez and Khair Khot
       hospitals currently being constructed. Specifically, the plan should identify:
            The funding source for the increased costs that will be needed to operate and maintain the new
             hospitals.
            Options for ensuring that the new hospitals can be used efficiently and effectively, to include an
             evaluation of whether all of the hospital space constructed will be used.
To ensure the successful provision of staffing resources needed to provide health care services, we
recommend that the USAID Mission Director for Afghanistan:
    2. Establish and monitor milestones for achieving the minimum and advised staffing levels at provincial
       hospitals and include information on meeting these milestones in annual program reviews.


AGENCY COMMENTS

USAID’s overall comments reflected the agency’s concern that the report’s focus on the two hospitals did not
allow for a discussion of other aspects of Afghanistan’s health care system and the efforts of USAID, the donor
community, and MOPH in bringing about improvements in life expectancy and other health indicators. We
agree that Afghanistan faces many challenges in addressing health sector needs, and our draft report
acknowledged some of the reported achievements of USAID’s assistance in expanding health care services
and reducing maternal and child mortality rates. Our draft report also provided sufficient background on the
PCH and construction programs. However, our audit was never intended as a comprehensive review of
Afghanistan’s health sector. Nonetheless, we have included additional information for context and clarity,
where appropriate.
USAID disagreed with our overall finding that the two hospitals may not be sustainable and did not concur with
our recommendation to coordinate with MOPH in developing a plan to make optimal use of these facilities.
USAID provided documents in an attempt to show that it coordinated with MOPH on the design of these
facilities and also noted MOPH’s assurance that it will fund their operation and maintenance. Our draft report
referenced much of this early correspondence on the hospitals’ initial design, and we welcome the Ministry’s
stated commitment to sustaining these facilities upon completion. However, USAID’s comments and the
information provided separately do not provide evidence of ministerial capacity to fund the sustainment of
these facilities. For example, USAID stated that under the Afghanistan Reconstruction Trust Fund, there is a
mechanism that includes funding for operation and maintenance expenditures. But this is speculative. No
ARTF funding is dedicated to the MOPH. In fact, the MOPH is only one of many Afghanistan government
agencies that is eligible to apply for such funding. There is no guarantee that it will receive any funds at all.
USAID also stated that provincial authorities and some officials in the MOPH requested a larger facility.
However, USAID neither provided documentation of analysis that validated the need for these larger facilities
nor conducted an independent analysis to determine whether the MOPH is capable of funding the operation of
these facilities given the significant increase in operation and maintenance costs.
USAID also expressed concern with our second recommendation to establish milestones reflecting EPHS
guidelines on minimum and “advised” hospital staffing levels and include these milestones in annual program
reviews. USAID provided several examples of ongoing efforts to monitor and evaluate staffing levels at



SIGAR Audit 13-9/Health Services in Afghanistan                                                            Page 9
provincial hospitals and also noted that PCH implementing partners report on staffing levels in accordance
with contractual requirements. However, these efforts are not specific to EPHS guidelines, developed by MOPH,
regarding minimum and advised levels. Furthermore, we strongly disagree with USAID’s assertion that our
recommendation does not recognize that staffing shortages are an issue that requires long-term solutions. Our
report (including the draft report provided to USAID) clearly note that MOPH faces a number of challenges in
recruiting and retaining qualified medical staff and acknowledges that the advised level of staffing is an
aspirational standard intended to be achieved within 5 to 10 years. The numbers given as minimum staff—as
indicated in the EPHS guidelines—are the numbers of staff required for the hospital to function as expected.
However, as we found, only one of the five hospitals met minimum staffing standards for all five key positions
that we reviewed. Moreover, while USAID indicated that other staff were recruited by NGOs to address
shortages in medical specialists, the EPHS guidelines do not include provisions that allow for the substitution
of assistants and other staff for medical specialists, and, therefore, we could not consider these as appropriate
replacements.
USAID’s comments on a draft of this report, along with our responses to these comments, are reproduced in
appendix II. USAID also provided technical comments, which we have incorporated into the report, as
appropriate.




SIGAR Audit 13-9/Health Services in Afghanistan                                                          Page 10
APPENDIX I - SCOPE AND METHODOLOGY

In August 2012, SIGAR initiated an audit of the U.S. Agency for International Development’s (USAID) Essential
Package of Hospital Services (EPHS) as it relates to the construction and staffing of hospitals for this program.
This report assesses whether: (1) USAID has ensured that the Afghan government can sustain two hospitals
currently being built with USAID funds, and (2) medical staffing required for the five provincial hospitals
operated with USAID funds was being provided. We had planned to inventory pharmaceuticals and medical
equipment at EPHS hospitals to verify compliance with the quantity levels prescribed for the program. Due to
security restrictions, we were only able to visit three of the five provincial hospitals and had limited time to
conduct our work on-site at each facility. Therefore, we excluded pharmaceuticals and medical equipment from
the scope of our review. This audit covered the period from July 2007 through April 2013.
To assess whether USAID has ensured that the Afghan government can sustain hospitals built with USAID
funds, we reviewed the cooperative agreement for the design and construction of Gardez and Khair Khot
hospitals, and plans in place to fund the operation and maintenance costs of these facilities once completed.
We analyzed operation and maintenance costs for these hospitals to determine whether available funding will
allow the facilities to operate as intended. We interviewed USAID, non-governmental organization (NGO), and
Ministry of Public Health (MOPH) officials to obtain any plans in place to sustain and transition these facilities
to the Afghan government.
To assess whether medical staffing required for provincial hospitals was being provided, we visited provincial
hospitals in Paktiya, Ghazni, and Paktika, and interviewed relevant hospital and provincial health officials. We
interviewed USAID and Afghan provincial government officials, Afghan health council members, and NGO
representatives to gain an understanding of hospital operations, funding processes, and challenges of
implementing the EPHS. We analyzed data on staffing to determine whether the services prescribed in the
EPHS are being provided as required. We analyzed the funding process from MOPH to the NGOs implementing
EPHS at health facilities under the EPHS, to gain an understanding of the flow of funds.
We did not rely on computer-processed data in conducting this audit. We considered the impact of compliance
with laws and fraud risk. With respect to assessing internal controls, we reviewed compliance with
requirements of the EPHS and NGO contracts and analyzed the operation and maintenance costs of the new
hospitals in Gardez and Khair Khot. The results of our assessment are included in the body of this report.
We conducted work in Kabul, Ghazni, Paktiya, and Paktika provinces from August 2012 through April 2013, in
accordance with generally accepted government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. SIGAR conducted this audit under the authority
of Pub. L. No. 110-181, as amended, and the Inspector General Act of 1978, as amended.




SIGAR Audit 13-9/Health Services in Afghanistan                                                            Page 11
APPENDIX II - COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




SIGAR Audit 13-9/Health Services in Afghanistan                 Page 12
                                                     SIGAR
                                                  comment 1




                                                     SIGAR
                                                  comment 2

                                                     SIGAR
                                                  comment 3



                                                     SIGAR
                                                  comment 4




SIGAR Audit 13-9/Health Services in Afghanistan      Page 13
                                                     SIGAR
                                                  comment 5




SIGAR Audit 13-9/Health Services in Afghanistan      Page 14
                                                     SIGAR
                                                  comment 6




                                                   See SIGAR
                                                  comment 7




SIGAR Audit 13-9/Health Services in Afghanistan       Page 15
                                                     SIGAR
                                                  comment 8




SIGAR Audit 13-9/Health Services in Afghanistan       Page 16
                                                         6


                          workers in all categories except dentists. On the other hand, there
                          are a few health worker categories that are not included in the
                          packages but seem able to fill important gaps in the health worker
                          shortage, including assistant midwives and nurses. It is, therefore,
                          important to take the BPHSIEPHS requirements as guidelines
                          rather than as rigid rules. For instance, the fact that the
                          BPHSIEPHS standards do not include "assistants" should not be
                          interpreted to mean that assistants cannot or should not be
                          deployed. Building in flexibility so that existing health workers are
                          deployed andfully utilized is critical to addressing shortages in
                          some areas. Given the existing mix ofhealth workers, there should
                          be the opportunity to allow, for instance, physicians at BPHS
                          facilities to fill nurse or midwife vacancies.

                    SIGAR' s report does not convey that services are being delivered through
                    EPHS, despite the staffing shortages (which are a universal issue and not
                    confined to USAID-supported facilities, e.g., the World Health
                    Organization has cited 57 countries to be in a human-resources crisis in
                    the health area). In addition, the report and Table I on page 7 of the
                    report, which forms the cornerstone ofSIGAR' s argument, provides only
                    a snapshot of a specific point in time:

                       • Table 1 does not convey an accurate staffing pattern over time. For
                         instance, although Ghazni had no pediatrician at the time of the
                         audit, one was hired in April2013, showing the value of including
                         multiple data points over time.

                       • There is no analysis of staffing patterns over time, nor of the
                         outputs and results delivered by service providers present in the
                         facilities at issue (see, for example, the service delivery statistics
                         for these facilities captured in Attachment 5, as well as the health
                         impacts achieved as captured in the Afghanistan Mortality Survey,
                         20 10).


                    Table 1 and the SIGAR report also do not indicate the specifications the
                    MoPH provides for staffing under EPHS in its Request for Proposals
                    (RFPs) against which NGOs provide proposals and in the subsequently
                    awarded contracts to NGOs. These specifications vary depending on the
                    requirements of the hospital, e.g., number of beds. The chart included as
                    Attachment 6 provides the staffing requirements included in NGO
                    contracts for EPHS implementation in the five hospitals in question. It
                    demonstrates the variation, as well as the alternate staff recruited by the




SIGAR Audit 13-9/Health Services in Afghanistan                                                   Page 17
SIGAR Audit 13-9/Health Services in Afghanistan   Page 18
                                    SIGAR Response to USAID’s Comments
    1. Although USAID indicated that there is a mechanism that includes funding for operation and
       maintenance expenditures under the Afghanistan Reconstruction Trust Fund (ARTF), there is nothing
       in that mechanism that dedicates ARTF funding to MOPH programs. Rather, MOPH is simply one of
       many Afghan ministries eligible to apply for such funding and there is no guarantee that any such
       funding will be provided to MOPH programs. Additionally, although USAID provided documentation
       explicitly stating that funding provided under the PCH program covered, among other things, operation
       and maintenance costs, it did not provide any documentation or analysis that validated the need for
       these larger facilities. It also failed to conduct an independent analysis to determine whether the
       MOPH is capable of funding the operation of these facilities given the significant increase in operation
       and maintenance costs.
    2. Our scope was neither designed nor intended to include a comprehensive review of the public health
       system in Afghanistan or a general assessment of USAID’s management and oversight of PCH. Rather,
       the report addresses the sustainability of the two hospitals under construction through the CHEF
       program and medical staffing for the five hospitals in the EPHS program—two relevant issues that we
       believe warranted specific attention, given USAID’s investment in and commitment to the success of
       these two hospitals.
    3. Our report (including the draft provided to USAID) clearly notes that MOPH delivers the two PCH
       components: BPHS (basic health care) and EPHS (essential hospital services), and that USAID
       provides the funds directly to MOPH, which contracts for implementation of the basic and hospital
       care programs.
    4. As stated above, this report was not intended as a comprehensive review of all USAID assistance to
       the EPHS program and, therefore, does not make recommendations to improve USAID health
       programs overall. USAID’s assertion that “PCH/EPHS never intended to fund O&M of the new
       hospitals” fails to address the issue; the point we make in the report is that no reliable provision has
       been made to fund O&M for these hospitals.
    5. We welcome MOPH’s commitment to sustain these facilities and have described the early
       communication between USAID and MOPH in our report. However, USAID did not provide evidence
       that an assessment of MOPH capacity to fund the larger facilities had been conducted or that the
       dialogue with MOPH fully addressed the ministry’s needs and capabilities. As we note in our report,
       ministry officials told us that the statements from the Minister regarding MOPH’s commitment and
       ability to sustain the facilities were not based on detailed analyses of operation and maintenance
       costs, but on general assumptions regarding the Ministry’s ability to fund operations for the new
       health facilities in the future. In addition, ministry officials, including those responsible for managing
       the PCH program, told us that construction on the hospitals began before they were given the
       opportunity to review the hospital designs; therefore, ministry officials were not able to provide
       feedback on the project requirements.
    6. The attachment referenced here is a high-level summary of a meeting with Afghan officials to discuss
       the Gardez hospital in October 2008. It does not provide support for USAID’s assertion that MOPH
       officials requested a larger facility.
    7. USAID’s comments and the information referenced do not provide sufficient evidence that USAID and
       MOPH have developed a plan for making optimum use of the hospitals or for ensuring operation and
       maintenance costs are covered.
    8. The efforts outlined here by USAID are not specific to EPHS guidelines, developed by MOPH, regarding
       minimum and advised staffing levels. Furthermore, we strongly disagree with USAID’s assertion that
       our recommendation does not recognize that staffing shortages are an issue that requires long-term
       solutions. Our report (including the draft provided to USAID) clearly notes that MOPH faces a number


SIGAR Audit 13-9/Health Services in Afghanistan                                                            Page 19
        of challenges in recruiting and retaining qualified medical staff and acknowledges that the advised
        level of staffing is an aspirational standard that is intended to be achieved within 5 to 10 years. The
        numbers given for minimum staff—as indicated in the EPHS guidelines—are the numbers of staff
        required for the hospital to function as intended. However, as we found, only one of the five hospitals
        met the minimum staffing standards for all five key positions that we reviewed. Moreover, while USAID
        asserted that other staff were recruited by NGOs to address shortages in medical specialists, the
        EPHS guidelines do not include provisions that allow for the ad hoc substitution of assistants and
        other staff in lieu of medical specialists, and, therefore, we could not consider these as appropriate
        replacements. That is why we believe that taking steps to establish milestones for achieving the
        minimum and advised staffing levels is warranted.




SIGAR Audit 13-9/Health Services in Afghanistan                                                        Page 20
APPENDIX III - ACKNOWLEDGEMENTS

Nicolas Torres, Senior Audit Manager

Robert Rivas, Analyst-in-Charge

Dinusha Jayasinghe, Senior Auditor

Fawad Arzoyee, Analyst/Translator

Mia Bonarski, Methodologist




SIGAR Audit 13-9/Health Services in Afghanistan   Page 21
                                        This audit report was conducted  
                                        under project code SIGAR‐068A. 




SIGAR Audit 13-9/Health Services in Afghanistan                             Page 22
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
